               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




              Postal Service Refunds

                       Audit Report




                                              August 30, 2011

Report Number FF-AR-11-013
                                                                       August 30, 2011

                                                              Postal Service Refunds

                                                        Report Number FF-AR-11-013




IMPACT ON:
The U.S. Postal Service’s processes for     Finally, the Postal Service is not
Special Postage Payment Systems             covering its costs to process meter mail
(SPPS), Value Added Refunds (VAR),          refunds. By increasing the refund fee,
and meter mail refunds and the              the Postal Service could recover
customers who are entitled to them.         approximately $1.53 million annually.

WHY THE OIG DID THE AUDIT:                  WHAT THE OIG RECOMMENDED:
Our objective was to determine the          We recommended documenting the
efficiency and effectiveness of             SPPS refund process and policies and
processes over customer refunds.            devising a method to communicate the
                                            changes to customers effectively;
WHAT THE OIG FOUND:                         establishing a timeframe performance
The Postal Service could improve its        standard for processing customer meter
VAR, SPPS, and meter mail refund            mail refunds; and analyzing and
processes to increase efficiency, reduce    establishing an administrative fee that
costs, and improve customer                 will cover processing costs. In addition,
satisfaction. Additionally, if the Postal   we recommended automating the VAR
Service automated the VAR process, it       process.
could avoid annual scanning and
imaging center processing costs of          WHAT MANAGEMENT SAID:
approximately $90,000.                      Management agreed with all the findings
                                            and recommendations. Management
The Postal Service has also not             further stated that it will complete all
documented the SPPS refund process.         recommended directives and updates
Incomplete or unavailable written           no later than March 31, 2012. Finally,
guidance for the process could increase     management did not state agreement or
customer confusion and dissatisfaction      disagreement with the monetary impact.
with the Postal Service and an
unnecessary workload for the Postal         AUDITORS’ COMMENT:
Service.                                    The OIG considers management’s
                                            comments responsive to the
Further, there is no standardized           recommendations and corrective actions
timeframe for processing meter mail         should resolve the issues identified in
refunds. Creating a standard timeframe      the report.
could improve customer satisfaction.
                                            Link to review the entire report
August 30, 2011

MEMORANDUM FOR:             TIM F. O’REILLY
                            VICE PRESIDENT, CONTROLLER

                            PRITHA MEHRA
                            VICE PRESIDENT, MAIL ENTRY AND PAYMENT
                            TECHNOLOGY

                            DEAN J. GRANHOLM
                            VICE PRESIDENT, DELIVERY AND POST OFFICE
                            OPERATIONS

                            ELLIS A. BURGOYNE
                            CHIEF INFORMATION OFFICER AND EXECUTIVE VICE
                            PRESIDENT




FROM:                       John E. Cihota
                            Deputy Assistant Inspector General
                             for Financial Accountability

SUBJECT:                    Audit Report – Postal Service Refunds
                            (Report Number FF-AR-11-013)

This report presents the results of our audit of the U.S. Postal Service refunds (Project
Number 11BG012FF000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Juan Gonzalez, acting director,
Financial Field – West, or me at 703-248-2100.

Attachments
cc: Megan J. Brennan
    Joseph Corbett
    Vicki M. Bosch
    James J. Boldt
    Jack L. Meyer
    Corporate Audit and Response Management
                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Automate the VAR Process ............................................................................................. 2

Updated SPPS Refund Process Not Documented or Effectively Communicated ........... 2

No Standardized Timeframe for Processing Meter Mail Refunds .................................... 4

Processing Costs for Meter Mail Refund Not Fully Covered by Fees .............................. 4

Recommendations .......................................................................................................... 5

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

     Background ................................................................................................................ 7

     Objective, Scope, and Methodology .......................................................................... 9

     Prior Audit Coverage................................................................................................ 10

Appendix B: Monetary Impacts ..................................................................................... 12

Appendix C: Statistical Sample and Projections for Review of Meter Mail Refunds ...... 13

Appendix D: Management’s Comments ........................................................................ 16
Postal Service Refunds                                                                                   FF-AR-11-013



Introduction

This report presents the results of our audit of U.S. Postal Service refunds (Project
Number 11BG012FF000). This self-initiated audit addresses operational risk. The
objective of our audit was to determine the efficiency and effectiveness of processes
over customer refunds. See Appendix A for additional information about this audit.

In fiscal year (FY) 2010, the Postal Service processed more than $402 million in refunds
including:

   $206 million for value added refunds (VAR).1
   $99 million for permit postage and fees.2
   $60 million for stamps and fees.3
   $21 million for unused or spoiled meter mail postage.
   $16 million for 10 other types of refunds.4

Recently, the mailing community has voiced concern regarding the Postal Service’s
processing and timeliness of SPPS refunds.5 In addition, during other work we
conducted, we noted backlogs of up to 6 months for meter mail refunds.

Conclusion

The Postal Service has opportunities to improve the VAR, SPPS, and meter mail refund
processes to increase efficiency, reduce costs, and improve customer satisfaction.
Specifically, the Postal Service could automate the VAR refund process to eliminate
some costs and workload. In addition, the Postal Service has not documented SPPS
refund processes and procedures in its manuals or handbooks. Furthermore, the Postal
Service has no standardized timeframe to process meter mail refunds. Sixty-five
percent of the meter mail refunds we reviewed took more than 30 days to process, with
10 percent taking between 91 and 263 days. Finally, the Postal Service is not covering
its costs to process meter mail refunds. We estimate the Postal Service could recover
about $1.62 million annually in processing costs by making changes in its processes.




1
  A refund to mailers who perform value added services and submit mail at a discounted rate.
2
  The majority of these refunds are comprised of Special Payment Postage System (SSPS) refunds and Summer
Sale rebates.
3
  A majority of stamps and fees refunds are due to Postage Validation Imprint (PVI) refunds.
4
  Examples of other types of refunds include: retail services (box rents); Express Mail®; miscellaneous non-postal
revenue; unclaimed funds at the mail recovery center; sure money and premium forwarding service fees.
5
  Refunds for mailings using a previously authorized customized mailing system. These refunds resulted from
adjustment factor issues, such as double counting of manifests mailings, technical errors in the electronic validation
system, or data entry errors in PostalOne!.
                                                            1
Postal Service Refunds                                                                                FF-AR-11-013



Automate the VAR Process

The Postal Service has considered but does not currently have an automated method of
processing VARs directly to the accounting service center (ASC).6 An automated
process could avoid unnecessary processing costs at both postal retail units and the
Scanning and Imaging Center (SIC).7 The current VAR process is as follows:

   Business mail entry unit (BMEU) personnel verify and approve VAR refunds.

   BMEU transfers VAR paperwork to the postal retail unit (PRU), which enters the
    information into the required account identifier code (AIC)8 through the Point-of-
    Service (POS) system. 9

   The PRU forwards the approved paperwork to the SIC, which scans the paperwork,
    reviews for duplicate entries, and forwards to the ASC for payment.

In FY 2010, the SIC processed 79,221 VAR transactions totaling $206 million.
Management stated that it cost the Postal Service $1.13 for each VAR refund
processed by the SIC in FY 2010. Further, management stated that it was planning an
update to the PostalOne! system10 that would allow BMEU personnel to enter VAR
refunds into the correct AIC and transmit the data electronically to the ASC for payment.
This update would have a one-time cost of $71,152, but the Postal Service postponed
the update as other PostalOne! updates have taken priority. By automating the VAR
process, the Postal Service could avoid annual SIC processing costs of approximately
$90,000. Over a 10-year period, we estimate $662,000 in saved processing costs. See
Appendix B for monetary impact.

Updated SPPS Refund Process Not Documented or Effectively Communicated

The Postal Service has not documented the SPPS refund process in its criteria or
effectively communicated the process to customers. In November 2010, the Postal
Service changed its SPPS refund process. These changes included:

   Instituting an email-based customer submission process.
   Implementing a 30-day timeframe for processing SPPS refunds.
   Incorporating the changes into new SPPS agreements.


6
  The ASCs are accounting, disbursing, and data processing facilities that provide accounting support for Postal
Service activities. There are three ASC locations: St. Louis, MO; Eagan, MN; and San Mateo, CA.
7
  The SIC is the facility that receives hard copy Post Office™ forms and documents from field offices for processing
by Accounting Services. The SIC prepares, scans, and indexes the forms and transmits the forms electronically to the
Postal Service’s workflow management system. From there, the forms are directed to the appropriate Accounting
Services location for processing.
8
  AICs are three-digit codes that assign financial transactions to the proper account on the general ledger. Each AIC
is assigned a corresponding general ledger account.
9
  POS is the electronic system used at retail facilities to record sales and payment transactions.
10
   PostalOne! is a system that provides web-based services for business mailers and business mail acceptance
employees.


                                                         2
Postal Service Refunds                                                                                 FF-AR-11-013



However, the Postal Service did not provide written guidance to customers or document
the changes internally. Management stated they did not know where to document the
process because no one document encompasses all of the SPPS requirements.
Management informed the mailing community of the new process during a Mailers
Technical Advisory Committee (MTAC) meeting in November 2010 and relied on word
of mouth to reach all other mailers. However, notice of the updated refund process may
not have reached all mailers. A news article written in response to the changes
presented by the Postal Service at the MTAC meeting highlighted customer
dissatisfaction with the timeliness of refunds processed and the need for clarity in the
new SPPS process.

Customers submitted 67 refund requests through the e-mail address from
November 2010 through April 2011. Of these, nine were not SPPS refund requests and
the customer should not have submitted them to the e-mail address, 20 requests
required additional information from customers, and the Postal Service processed the
remaining 38 without incident (see Table 1).

   Table 1: SPPS Refunds Submitted Through the Dedicated Web-Based E-mail
                             November 2010 to April 2011
                Category                       Number         Percentage
 Non-SPPS refunds                                 9               13%
 Additional information required from
                                                 20               30%
 customer
 Refunds processed without incident              38               57%
 Total Refunds Processed                         67              100%
Source: Headquarters-maintained spreadsheet used to track SPPS refunds.

We reviewed the refund requests to determine the processing timeframes. Of the
58 SPPS refund requests, the Postal Service processed 29 within the 30-day claim
processing timeframe and processed 17 between 31 and 53 days. Five are pending
resolution by headquarters and seven are with the Pricing and Classification Service
Center (PCSC) awaiting a ruling for payment approval. Customers submitted all 12 of
the refunds pending resolution more than 30 days ago (see Table 2).

                  Table 2: Timeframes for Processing SPPS Refunds
                             November 2010 to April 2011
           Days to Process                      Number            Percentage
 Refunds processed within 30 days                 29                  50%
 Refunds processed between 31 and 53              17                  29%
 days
 Refunds still in process                          5                   9%
 Refunds pending ruling by PCSC                   711                 12%
 Total Refunds Processed                          58                 100%
Source: Headquarters-maintained spreadsheet used to track SPPS refunds.

11
  When headquarters personnel are unsure if a refund is valid, they send the refund to the PCSC for a ruling. In
addition, if headquarters denies a refund, a customer can appeal the ruling to the PCSC.


                                                          3
Postal Service Refunds                                                                                FF-AR-11-013




As shown in Table 1, 20 SPPS refund requests required additional information from the
customer in order to process. Incomplete or unavailable written guidance for the SPPS
refund process could increase customer confusion and dissatisfaction with the Postal
Service and cause unnecessary workload.

No Standardized Timeframe for Processing Meter Mail Refunds

The Postal Service has no timeframe goal documented in its criteria for processing
meter mail refunds. During our review of 89 randomly selected meter mail refund
transactions,12 we found that 65 percent of the refunds took more than 30 days to
process from acceptance at the PRU until submission to the SIC.13 We found that one
took 263 days to process. See Table 3 for complete results on processing timeframes
from our sample.

             Table 3: Number of Days to Process Meter Mail Refunds
 Days to Process              Number of Refunds              Percentage
 Less than 30 Days                     31                        35%
 31 – 60 Days                          36                        40%
 61 – 90 Days                          13                        15%
 Greater Than 91 Days                   9                        10%
 Total Refunds Sampled                 89                       100%
Source: Enterprise Imaging and Workflow System (EIWS).


Establishing timeframes for processing meter mail refunds can increase efficiency and
accountability and improve customer satisfaction with the refund process.

Processing Costs for Meter Mail Refund Not Fully Covered by Fees

The Postal Service is not covering its costs to process meter mail refunds.14 The current
fee, which has been in place since May 2003, is $35 per hour for refunds over $350.
However, this amount does not cover the average overtime rate of the employees
processing these refunds.15 Management could not provide a reason why the fee
charged was insufficient to cover the cost of processing. As a result of our audit, the
Postal Service plans to change its policy and charge a 10 percent processing fee for
refunds regardless of the amount. This will allow the Postal Service to recover about
$984,000 annually for the costs of processing these refunds, or $8 million over a
10-year period.

In addition, the Postal Service has not set a minimum amount of postage for customers
to present when requesting a meter mail refund. Based on our observations of refunds
of less than $25, it took clerks about 15 minutes to verify the meter postage amount,
12
   See Appendix C for the sampling methodology.
13
   It takes an additional 5 days for the customer to receive payment for the refund after it is submitted to the SIC.
14
   Customers request meter mail refunds when they print incorrect postage amounts on mailpieces or when they print
postage on mailpieces but decide not to mail them.
15
   The average overtime rate for employees who process these refunds is $39 per hour.


                                                          4
Postal Service Refunds                                                                               FF-AR-11-013



complete the refund paperwork, enter the refund in the correct account, issue a no-fee
money order, and mail it to the customer. 16 The maximum fee charged on refunds of
$25 is $2.50 (or 10 percent of the postage amount) which does not cover its processing
cost.17 The Postal Service can cover the cost of processing meter mail refunds if it
establishes a $10 minimum administrative fee to process refunds of under $100.18 In
FY 2010, the Postal Service processed more than 70,000 meter mail refund requests of
$100 or less. See Table 4 for breakdown of FY 2010 meter mail refunds by amount. By
charging a minimum administrative fee of $10, the Postal Service can recover
approximately $546,000 annually or $4.5 million over a 10-year timeframe. See
Appendix B for monetary impact.

                     Table 4: FY 2010 Meter Mail Refunds by Amount
                   Amount                       Number             Percentage
     Less than $100                              72,363                80%
     $100-$350                                   10,402                12%
     $351-$500                                    2,046                2%
     Greater than $500                            5,052                6%
     Total Refunds Processed                     89,863               100%
Source: Accounting Data Mart (ADM).

Recommendations

We recommend the vice president, Controller, and vice president, Mail Entry and
Payment Technology:

1. Document the Special Payment Postage System refund process and policies and
   devise a method to communicate the changes effectively to customers.

2. Analyze and establish an administrative and minimum fee that will cover processing
   costs.

We recommend the vice president, Delivery and Post Office Operations:

3. Establish a timeframe performance standard for processing customer meter mail
   refunds.

We recommend the vice president, Controller, in coordination with the chief information
officer and executive vice president:

4. Complete the update to the PostalOne! system to enable electronic transmission of
   Value Added Refund data to accounts payable.


16
   Based on our observations, we believe the larger the refund amount, the more envelopes with postage the clerks
have to count and verify. Consequently, the time to process the refund will increase.
17
   The current fee charged to process refunds of under $350 is 10 percent of the face value of the indicia.
18
   This is roughly one quarter the average hourly overtime rate for employees who process these refunds.


                                                         5
Postal Service Refunds                                                       FF-AR-11-013




Management’s Comments

Management agreed to all the findings and recommendations in this report. However,
management did not state agreement or disagreement with the monetary impact.
Although management did not explicitly comment on the monetary impact, management
stated they were in concurrence that the fee charged on meter mail refunds may not
cover the cost to process. Also, management agreed to automate the value added
refund process.

Regarding recommendation 1, management agreed to document and communicate the
Special Payment Postage System policies and procedures to customers by
December 31, 2011.

Regarding recommendation 2, management agreed to modify the current policy and
assess a processing fee for refunds that covers costs. The scheduled update to the
refund fee policy and process is March 31, 2012.

Regarding recommendation 3, management agreed to establish a 30-day performance
standard for refunds under $500 and a 60-day performance standard for refunds over
$500. Management expects to complete the update to the refund processing
performance standard by March 31, 2012.

Regarding recommendation 4, management is in the processes of enhancing the
PostalOne! systems to automate processing of VAR directly to the Accounting Services
without intervention of the postal retail units. The scheduled update for implementation
of the automated process is December 31, 2011.

See Appendix D for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and corrective actions should resolve
the issues identified in the report.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                           6
Postal Service Refunds                                                       FF-AR-11-013



                         Appendix A: Additional Information

Background

The Postal Service documents most refund activity on Postal Service (PS) Form 3533,
Application for Refund of Fees, Products and Withdrawal of Customer Accounts. It is
the responsibility of the postmaster or unit manager to review the form for completeness
and ensure the refund is appropriate. The unit enters the refund amount on PS Form
3533 into the corresponding refund AIC category. Units can issue cash refunds of up to
$25. If the refund amount is greater than $25 but less than $500, the unit can issue a
no-fee money order to the customer. The ASC issues refunds greater than $500. In this
instance, the unit offsets the refund amount to AIC 280, Disbursements Sent to ASC.
The unit sends the original PS Form 3533 to the SIC for processing, along with a receipt
for the transaction. The SIC scans the paperwork, reviews for duplicate entries, and
forwards to the ASC for payment.

The top four dollar value AIC refund categories for the Postal Service in FY 2010 were:
   AIC 541 – Refund Value Added Service.
   AIC 528 – Refund Permit Postage and Fees.
   AIC 553 – Refund Stamps and Fees.
   AIC 526 – Refund Spoiled/Unused Customer Meter Stamps.

Value Added Refunds

VARs allow a mailer’s metered mail to show postage at a higher price than that claimed
on the postage statement, because the mailer has presorted to a finer level. In these
cases, mailers receive a refund for the difference in postage. A presenter (mailer) must
have Postal Service authorization to seek the refund. Mailers seeking authorization to
submit or actually submitting VAR requests must follow the standards in the Domestic
Mail Manual, Section 604.9.4, VAR.

To request a VAR, a mailer must provide a PS Form 3533 and supporting
documentation with the corresponding mailing at the time of acceptance by the BMEU.
Once the BMEU has verified the VAR mailing, the BMEU signs and forwards the
PS Form 3533 to the PRU. In FY 2010, the Postal Service processed 79,221 VAR
transactions, totaling $206 million.

Permit Postage and Fees Refunds

Permit postage and fees refunds relate to permit mailings, postage amounts for permit
mailings damaged by the Postal Service, and refunds of annual bulk mailing fees for
customers who do not make a mailing in that year. In FY 2010, roughly 72 percent of




                                            7
Postal Service Refunds                                                                                  FF-AR-11-013



the $99 million in refunds for this AIC were comprised of SPPS and Summer Sale19
rebates. These were the only type of refunds we reviewed for AIC 528.

The SPPS provides alternative methods for mailers to calculate and pay postage.
Mailers are required to receive written authorization (mailing agreements or
authorizations) from the Postal Service to participate in any SPPS program. To receive
a refund for postage overpaid in SPPS, Electronic Verification System (eVS)® 20 or
Parcel Return Service (PRS),21 customers must submit the request and applicable
documentation to a designated Postal Service e-mail address. The Postal Service will
assign the request to a Business Mailer Support Analyst (BMSA), who determines
whether the customer request has all applicable documents properly completed and
whether the documentation supports the refund claimed. After review, the BMSA
submits a letter to recommend approval or denial of the refund request for signature to
the manager, Business Mail Support (BMS). The BMS manager forwards the letter of
approval or denial to the applicable district BMEU and the customer with instructions on
what they need to complete the refund for SPPS refunds.

For eVS or PRS refunds, the mailer is issued a letter and the Centralized Account
Processing System service center issues the refund within 15 days of the letter. If
incomplete documentation is submitted with the refund request, the BMSA will contact
the mailer to request the missing additional documentation needed to support the
request (for example, missing documents, incorrect forms, or evidence needed to
support mailer claims). If complete documentation is submitted, it will be finalized. When
a refund is generated because of a system or procedural failure in the mailer's
operation, the mailer must pay the administrative cost of the refund. This administrative
cost is based on the pay grade of the individual who processed the refund. For SPPS
refunds, the administrative cost is either subtracted from the authorized refund amount
or the mailer makes a separate payment for the fee. For eVS and PRS refunds, the
administrative cost is automatically subtracted from the authorized refund amount.

Stamps and Fees Refunds
These refunds are for postage and fees paid by retail customers for special services22
they did not receive at the time of mailing. In FY 2010, this AIC included spoiled,
misprinted, or jammed PVI items from the retail units. According to management and
our review of transactions for this account, approximately 80 percent of the $60 million
in refunds for this AIC were due to these types of PVI errors. In November 2010, the
Postal Service initiated a dedicated AIC for PVI errors, AIC 509, Voided Postage
Validation Imprinter Labels. We did not review the refund process for either of these


19
   Summer Sale was an incentive program to increase volume over a typically light mail timeframe by providing
customers with a rebate or credit of up to 30 percent for additional mail volume over a specific threshold. Customers
were required to preregister and be eligible to participate in the program.
20
   eVS is an electronic manifest mailing system that allows parcel mailers to document and pay postage through
electronic files for packages.
21
   PRS service allows customers to return items to participating retailers using the Postal Service for pickup.
22
   Special Services include Registered Mail™, Certified Mail™, Delivery Confirmation™, and Return Receipt
Requested.


                                                          8
Postal Service Refunds                                                                          FF-AR-11-013



AICs as part of our audit because these are PVI error transactions and not actual
refunds to customers.

Spoiled/Unused Customer Meter Stamps Refunds

To request this category of refunds, the customer must submit pieces of spoiled or
unused meter stamps with a PS Form 3533 to his or her local post office. The
mailpieces submitted for refund must be complete and legible with valid unused meter
stamps dated within 60 days of the date shown on the indicia. The Postal Service
assesses a 10 percent charge on the face value of the indicia for meter stamps if the
total face value is $350 or less. If the total face value is more than $350, the Postal
Service assesses a charge of $35 per hour for the actual hours used to process meter
stamp refunds. A PRU employee calculates the refund amount and completes Part 3,
Postage or Meter Stamps, on PS Form 3533. An employee and a witness destroy the
postage meter stamps and the supervisor and a witness certify the destruction and sign
Part 3 of PS Form 3533. In FY 2010, the Postal Service processed more than 89,000
transactions totaling approximately $21 million. We reviewed 80 randomly selected
refund transaction records of over $500, totaling $296,000. See Appendix C for
sampling methodology.

Objective, Scope, and Methodology

The objective of our self-initiated audit was to determine the efficiency and effectiveness
of processes over customer refunds. This project focused on SPPS, VAR, and meter
mail refunds; and the Summer Sale rebate program. We reviewed these types of
refunds because they comprised the highest dollar value of refunds processed by the
Postal Service.

To accomplish our objective, we evaluated how the Postal Service accepts and
processes these refunds for payment. In addition, we determined the timeframe for
processing these refunds and assessed the need to update any refund policies and
procedures. We evaluated transaction data for these refunds from the ADM system and
headquarters maintained spreadsheets. We reviewed Postal Service manuals,
handbooks, management instructions, publications, and memorandums to determine
current policies and procedures.

We conducted site visits to judgmentally selected postal units23 and observed the
process and supporting documentation for SPPS, VAR, and meter mail refunds. We
interviewed unit personnel and Postal Service Headquarters’ management to obtain an
understanding of current policies and procedures and noted their comments, where
appropriate.



23
  These sites included the Santa Ana, CA, window section; Los Angeles, CA, BMEU; the Denver, CO, General Mail
Facility window section; Greenwood Village, CO, branch; and the Salt Lake City, UT, BMEU. These units were
judgmentally selected based on proximity to OIG offices.


                                                      9
    Postal Service Refunds                                                       FF-AR-11-013



    We conducted this performance audit from January through August 2011 in accordance
    with generally accepted government auditing standards and included such tests of
    internal controls, as we considered necessary under the circumstances. Those
    standards require that we plan and perform the audit to obtain sufficient, appropriate
    evidence to provide a reasonable basis for our findings and conclusions based on our
    audit objective. We believe that the evidence obtained provides a reasonable basis for
    our findings and conclusions based on our audit objective. We discussed our
    observations and conclusions with management on July 12, 2011, and included their
    comments where appropriate.

    We traced recorded financial transactions to and from supporting documentation and
    assessed the reliability of computerized data by verifying the computer records to
    source documents. In addition, the OIG tests the financial information in ADM as part of
    its annual financial statement audits. We determined that the data was sufficiently
    reliable for the purposes of this report.

    Prior Audit Coverage

                                     Final
                     Report         Report           Monetary
Report Title        Number           Date             Impact           Report Results
Express Mail     FF-AR-11-004     12/15/2010        $1,898,137   We found over half of the
Guarantees                                                       40,000 ZIP Codes™ did
                                                                 not meet delivery standards
                                                                 and did not have a system
                                                                 in place to track Express
                                                                 Mail™ refunds by origin or
                                                                 destination ZIP Codes.
                                                                 Therefore, the Postal
                                                                 Service was unable to
                                                                 determine whether they are
                                                                 covering all their costs.
                                                                 Also, they did not monitor
                                                                 inactive Express Mail
                                                                 corporate accounts.
                                                                 Management generally
                                                                 agreed with the
                                                                 recommendations.




                                               10
    Postal Service Refunds                                                  FF-AR-11-013



Fiscal Year      FF-AR-10-196   7/16/2010          $0       We found the processes
2009                                                        used to calculate the
Standard                                                    reported increases in mail
Mail Volume                                                 volume might result in
Incentive                                                   misleading reported
Program                                                     revenue and volume
                                                            impacts. Management
                                                            generally agreed with the
                                                            recommendations.
Review of        DR-AR-07-011   7/13/2007        $180,619   We found retail associates
the Postal                                                  and customer service
Service’s                                                   supervisors were not
Refund                                                      always processing and
Process –                                                   recording refunds of
Capital Metro                                               stamps, fees, retail, and
Area                                                        Express Mail services.
                                                            Management agreed with
                                                            the recommendations.




                                            11
Postal Service Refunds                                                                                  FF-AR-11-013



                                     Appendix B: Monetary Impacts

                                               Monetary Impacts

                    Finding                        Impact Category                         Amount
            Automate the VAR                    Funds Put to Better Use24                   $662,12725
            Process
            Processing Costs for                Funds Put to Better Use                     12,493,800
            Meter Mail Refund Not
            Fully Covered by Fees
                   Total                                                                $13,155,92726




24
   Funds that could be used more efficiently by implementing recommended actions.
25
   This is the 10-year cost savings projection minus the one-time implementation cost of $71,152.
26
   Using the Postal Service’s current cost of capital rate of 3.875 percent, OIG policy allows monetary impact to be
calculated for a 10-year period.


                                                          12
Postal Service Refunds                                                        FF-AR-11-013



Appendix C: Statistical Sample and Projections for Review of Meter Mail Refunds

Purpose of Sampling

The objective of our audit was to determine the efficiency and effectiveness of
processes over customer refunds. In support of this objective, the audit team employed
a variable sample of AIC 526 transaction records. The sample design allows statistical
projection of the average processing hours spent per refund dollar. This projection was
used to estimate the annual cost savings for the Postal Service by increasing the fee
charged on these refunds from $35 an hour to 10 percent of the face value of the
indicia. In addition this sample was used to determine the number of days it took to
process meter mail refunds from acceptance to verification and entry into AIC 526.

Definition of Audit Universe

In FY 2010, there were a total of 89,863 transaction records for AIC 526, totaling
$21 million. A transaction record consists of one or more meter mail refunds entered
into AIC 526 by a given unit on a given day. The audit team obtained this information
from the Postal Service’s ADM.

Audit resource constraints limited us to only reviewing refunds that were sent to the SIC
and maintained in EIWS. Because refunds of over $500 are sent to the SIC, only those
refunds were included in our universe. In FY 2010, there were 5,052 AIC 526
transaction records (unit-refund-days) that totaled $500 or more. These comprised our
sampling universe. The universe data was sufficient to provide the total hours spent and
total refund dollars, as well as the total number of days it took to process the refund.

Sample Design and Modifications

We used the random number generator in Microsoft Excel to select 80
unit-refund-days for review from the universe of 5,052 unit-refund-days.

Within the 80 randomly selected unit-refund-days, a total of 92 individual refund
transactions were sent to the SIC, totaling $232,426. We reviewed supporting PS Forms
3533 for all of these transactions and determined: units charged a fee of $35 an hour for
59 transactions, units charged a fee of 10 percent of the face value of the indicia for 31
transactions, and units did not charge a fee on two transactions. For the purposes of
determining the average processing hours per refund dollar, we used the 59
transactions that charged an hourly fee. We considered these 59 transactions to be a
simple random sample of all transactions in our universe for which $35 an hour was
charged.

In addition, we reviewed the 92 individual transactions to determine the number of days
to process meter mail refunds. We reviewed each supporting PS Form 3533 and
determined that 89 had the necessary date information documented; however, three did
not. For the 89 transactions, we looked at the date the customer submitted the form and



                                            13
Postal Service Refunds                                                        FF-AR-11-013



compared it to the date the transaction was entered into AIC 526. For the purpose of
estimating the average numbers of days in the universe for processing meter mail
refunds, we considered the 89 individual transactions selected to represent a two-stage
random sample, with the first stage being the unit-refund-day and the second stage
being the individual refund transaction.

Sample Results

Estimate of processing hours per refund dollar:

For each of the 59 transactions in our sample, we divided the total fee charged by
$35 an hour to estimate the number of hours it took to process the refund. Next, we
divided the number of hours by the total amount of the refund requested before the fee
was deducted. This resulted in the number of processing hours per refund dollar for
each of our sample members. We then used these 59 values to statistically project the
universe average, using the standard statistical theory for simple random samples. We
determined the point estimate was .001234 hrs/refund dollar. The relative precision
achieved was +-14.55 percent at the 95-percent confidence level. The point estimate
was then used in subsequent cost savings calculations.

Estimation of average number of days to process refunds:

To analyze the sample results, we used the theory presented in Section 9.4 of
Elementary Survey Sampling, Sixth Edition, by Scheaffer, Mendenhall, and Ott, pages.
310 and 311, for the ratio estimation of a population mean for two-stage cluster
sampling. This theory is appropriate for use when the number of secondary sampling
units in the sampling universe is unknown.

The point estimate of the average number of days for processing, produced by the
analysis, was 48.8 days. The relative precision achieved was +-24.9 percent at the
95 percent confidence level. Because the relative precision achieved did not meet
our internally-imposed standard of +-20 percent, we chose to report the lower limit of a
one-sided 95-percent confidence interval instead of the point estimate. Therefore, we
are 95-percent confident the average number of days for processing in the universe is
at least 38.6 days.

Cost Savings Calculations

To determine the annual cost savings for the Postal Service by increasing the fee
charged on these refunds from $35 an hour to 10 percent of the face value of the
indicia, we used .001234 as the average processing hours per refund dollar. We
multiplied this value by the total dollar value of refunds over $500 in FY 2010,
$17,327,517. This equaled 21,380 and is the estimated total number of hours used to
process all refunds over $500 in FY 2010. We multiplied this value by $35 to arrive at
the projected total fees charged if all meter mail refunds were processed at $35 an hour.
This value turned out to be $748,490. We then determined what the total fees charged



                                            14
Postal Service Refunds                                                        FF-AR-11-013



would have been, if all meter mail refunds had been processed at 10 percent of the face
value of the indicia, by multiplying the total dollar value in refunds over $500,
$17,327,517 by 10 percent. This number turned out to be $1,732,751. The difference is
$984,444 and represents the annual cost savings to the Postal Service if it charged a
fee of 10 percent of the face value of the indicia on refunds over $500. The present
value of the annual savings over the next 10 years is $8.035 million. This amount will be
claimed in the funds put to better use monetary impact category.




                                           15
Postal Service Refunds                                       FF-AR-11-013



                         Appendix D: Management’s Comments




                                        16
Postal Service Refunds        FF-AR-11-013




                         17
